TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Inefficiencies in Processing Operations
                    Assistance Requests Caused Taxpayers
                              Unnecessary Delays



                                           May 18, 2007

                              Reference Number: 2007-10-068




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  May 18, 2007


 MEMORANDUM FOR NATIONAL TAXPAYER ADVOCATE
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT
                CHIEF, APPEALS

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Inefficiencies in Processing Operations Assistance
                              Requests Caused Taxpayers Unnecessary Delays
                              (Audit # 200510040)

 This report presents the results of our review of the Operations Assistance Request (hereafter
 referred to as OAR or Request) process. The overall objectives of this review were to determine
 whether the OAR process is efficient and whether the Taxpayer Advocate Service (TAS)1 has an
 effective method to track OARs. The National Taxpayer Advocate identified the Request
 process as an area of concern that should be reviewed by the Treasury Inspector General for Tax
 Administration.

 Impact on the Taxpayer
 The OAR process is critical to ensure taxpayer problems are addressed correctly and timely.
 However, because the process is paper intensive, the Requests were not always delivered to and
 from other functions (Operations) using the most expeditious method, Operations sometimes
 rejected the Requests instead of taking the appropriate action to assist taxpayers, and the TAS did
 not always send Requests to the appropriate Operations liaisons, causing further delays to reroute
 the Requests. These delays are significant to taxpayers, many of whom had already experienced
 either a systemic delay trying to resolve problems with the Internal Revenue Service (IRS) or
 had a financial hardship that required an immediate response.



 1
  The TAS is an independent organization within the Internal Revenue Service that provides assistance to taxpayers
 whose tax problems have not been resolved through normal channels.
                  Inefficiencies in Processing Operations Assistance Requests
                             Caused Taxpayers Unnecessary Delays




Synopsis
The TAS did not always deliver Requests to Operations liaisons using the most expeditious
method. We estimate approximately 39,600 (28 percent) of the 140,709 Requests closed as
completed in Fiscal Year (FY) 2005 were delayed because the most expeditious method
available was not used. Likewise, Operations liaisons did not return completed Requests to the
TAS using the most expeditious method available. An estimated 36,300 Requests (26 percent)
were not returned immediately to the TAS once the recommended actions had been completed.
The TAS uses the Taxpayer Advocate Management Information System (TAMIS) to record,
control, and process taxpayer cases and to analyze core tax issues, laws, policies, and internal
IRS processes. However, TAS personnel did not record milestone dates in the TAMIS properly.
We estimate approximately 90,000 (64 percent) of the 140,709 Requests had at least 1 error on
the OAR milestone dates recorded on the TAMIS, including case assignment and case closure
dates. As a result, TAS management cannot rely on the System to accurately assess the Request
process and identify trends. Fully automating the Request process would dramatically improve
the reliability of OAR data on the TAMIS, as well as eliminate the inefficient process of
manually sending Requests to and from the TAS.
When the TAS sends Requests to Operations liaisons, it provides a Requested Completion Date.
If Operations believes the Requested Completion Date is not reasonable, the TAS is required to
obtain a Negotiated Completion Date with Operations, to ensure action is taken as expeditiously
and realistically as possible to resolve the taxpayers’ inquiries. However, we found
42,731 (30 percent) of the 140,709 Requests that had not been completed by the Requested
Completion Date either did not have a Negotiated Completion Date or the Request had been
received by the TAS after the Negotiated Completion Date. These Dates should be used to
facilitate communication between the TAS and Operations during the OAR process. Regular
communication would ensure Requests are worked expeditiously, address any problems, and
provide additional time to resolve the taxpayer’s issue, if needed.
During FY 2005, Operations rejected 20,463 Requests without addressing the TAS’
recommended actions. Of these, 6,472 (32 percent) were rejected because they were misrouted
to the wrong Operations liaison. Generally, there was little or no information in the TAMIS
history to establish why the TAS employees sent the Requests to the wrong person, such as use
of an outdated liaison list. The remaining 13,991 rejected Requests were closed for a reason
other than being misrouted. Further, 46 percent of the Requests rejected by Operations in
FY 2005 were closed with the reason “Other,” which provides no useful information to TAS
management. Although the Operations Assistance Request (Form 12412) contains seven reasons
why an OAR can be rejected, the Service Level Agreements signed between the National
Taxpayer Advocate and Operations executives do not allow for a Request to be returned without
the recommended action being addressed. It appeared that Operations employees did not always
contact the TAS to discuss the reason(s) why a Request could not be processed. Consequently,
                                                                                                  2
                  Inefficiencies in Processing Operations Assistance Requests
                             Caused Taxpayers Unnecessary Delays



the TAS employee had to issue a second Request to Operations to address the taxpayer’s issue,
which further delays the taxpayer’s case.

Recommendations
We recommended the National Taxpayer Advocate automate the OAR process by giving
Operations personnel the capability to input data and return Requests electronically. Until the
process is fully automated, the TAS and Operations should use the most expeditious method to
deliver and return Requests. We also recommended the National Taxpayer Advocate; the
Commissioners, Small Business/Self-Employed Division, Wage and Investment Division,
Tax Exempt and Government Entities Division, and Large and Mid-Size Business Division; the
Chief, Appeals; and the Chief, Criminal Investigation, define the Requested and Negotiated
Completion Dates clearly in their respective Service Level Agreements and establish and enforce
procedures requiring management to follow up on these Dates. The National Taxpayer Advocate
also should require TAS employees to document their case histories when they communicate
with Operations employees. In addition, the National Taxpayer Advocate should revise
Form 12412 to allow Requests to be closed as completed or misrouted only if they are sent to the
wrong Operations liaison. Finally, the National Taxpayer Advocate should evaluate a sample of
misrouted Requests to determine the reasons they had been issued to the incorrect liaison or
Operating Division.

Response
IRS management agreed with all but one of our recommendations. Although the TAS did not
agree with our recommendation to automate the OAR process by allowing Operations liaisons
direct access to the TAMIS, they agreed to automate the OAR process through the Desktop
Integration System, which sufficiently addresses our recommendation. The TAS will revise its
procedures and negotiate revisions to the Service Level Agreements with Operations regarding
the method used to deliver and return OARs, along with the use of Requested and Negotiated
Completion Dates. TAS management agreed case advocates should document their case
histories when communication occurs with Operations, and the TAS will reinforce this need
during their annual training. The TAS responded that the TAMIS alerts case advocates that
action is required 1 day after the due date because advocates are permitted a 5-day grace period.
We believe the grace period should be eliminated to avoid delays and move a taxpayer’s case to
resolution. Also, TAS management stated they are in the process of revising Form 12412;
however, it is unclear if these revisions will fully address our recommendation. Finally, TAS
management will evaluate a sample of misrouted OARs to determine the common causes of
errors. Management’s complete response to the draft report is included as Appendix VI.



                                                                                                    3
                 Inefficiencies in Processing Operations Assistance Requests
                            Caused Taxpayers Unnecessary Delays



Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Nancy
Nakamura, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                       4
                        Inefficiencies in Processing Operations Assistance Requests
                                   Caused Taxpayers Unnecessary Delays




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Operations Assistance Request Process Is Inefficient, Contributes to
          Inaccurate Data, and Causes Unnecessary Delays to Taxpayers..................Page 3
                    Recommendations 1 and 2: ..............................................Page 9

          The Taxpayer Advocate Service and Operations Are Not Complying
          With Completion Dates ................................................................................Page 9
                    Recommendations 3 and 4: ..............................................Page 12

          The Taxpayer Advocate Service and Operations Are Not Complying
          With the Service Level Agreements When Rejecting Operations
          Assistance Requests ......................................................................................Page 13
                    Recommendations 5 and 6: ..............................................Page 16


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – Outcome Measures...............................................................Page 21
          Appendix V – Operations Assistance Request (OAR) (Form 12412)..........Page 27
          Appendix VI – Management’s Response to the Draft Report ......................Page 30
               Inefficiencies in Processing Operations Assistance Requests
                          Caused Taxpayers Unnecessary Delays




                             Abbreviations

FY                     Fiscal Year
IRS                    Internal Revenue Service
OAR; Request           Operations Assistance Request
TAMIS                  Taxpayer Advocate Management Information System
TAS                    Taxpayer Advocate Service
                    Inefficiencies in Processing Operations Assistance Requests
                               Caused Taxpayers Unnecessary Delays




                                            Background

The Taxpayer Advocate Service (TAS) is an independent organization within the Internal
Revenue Service (IRS) that provides assistance to taxpayers whose tax problems have not been
resolved through normal IRS channels. TAS employees are authorized to perform some
case-related activities to resolve taxpayer problems; however, they are restricted from taking
certain actions on taxpayer accounts that exceed their delegated and statutory authorities.1
Consequently, the TAS must rely on assistance from employees assigned to other IRS functions.
To request assistance from an operating or functional unit (Operations), the TAS issues an
Operations Assistance Request (Form 12412) specifying the actions needed to help resolve the
taxpayer’s problem.
The TAS and Operations have designated certain employees as liaisons who control and monitor
the Operations Assistance Request (hereafter referred to as OAR or Request) process. The TAS
sends Requests to the appropriate Operations liaison on a paper Form 12412. Both the TAS and
Operations liaisons monitor the processing of Requests on the TAS database, the Taxpayer
Advocate Management Information System (TAMIS).2 Although Operations employees cannot
input information directly into the TAMIS, Operations liaisons can view information for specific
Requests using an electronic web portal. TAS employees can query and update Requests for
case activity, and TAS and Operations employees can produce summarized reports for internal
and external uses.
The TAS and each operating unit formalized the OAR process with a Service Level Agreement
(Agreement). The Agreements outline required time periods, guidance for negotiating
completion dates, procedures for elevating disagreements, a requirement of assigning liaisons,
and establishment of quarterly meetings.
The OAR process is critical to ensure taxpayer problems are addressed correctly and timely.
During Fiscal Year (FY) 2005, the TAS closed 161,172 Requests related to 109,400 TAS cases,
based on a November 17, 2005, extract of the TAMIS. Because some taxpayer cases may
involve more than one issue or more than one action, the TAS may need to issue more than one
Request to resolve a taxpayer’s case. In addition, the TAS may have to issue a replacement
Request for a taxpayer if Operations rejects the initial one.




1
 Delegation Order No. 267, January 17, 2001, and Internal Revenue Code Sections 7803 and 7811 (2007).
2
 The TAMIS is dedicated exclusively to recording, controlling, and processing taxpayer cases and is used by the
TAS in the analysis of core tax issues, laws, policies, and internal IRS processes.
                                                                                                          Page 1
                    Inefficiencies in Processing Operations Assistance Requests
                               Caused Taxpayers Unnecessary Delays



Prior to passage of the IRS Restructuring and Reform Act of 1998,3 the Problem Resolution
Program assisted the taxpayers. Although IRS employees performed case work for the Problem
Resolution Office, they reported to different operating units authorized to perform specific
case-related activities.4 After enactment of the IRS Restructuring and Reform Act of 1998, the
TAS replaced the Problem Resolution Program and became an independent function within the
IRS. TAS employees report to the National Taxpayer Advocate, not the operating units.
This review was performed at the IRS National Headquarters in Washington, D.C., and the
Treasury Inspector General for Tax Administration Field Office in Denver, Colorado, with
discussions and information provided by the TAS, Small Business/Self-Employed Division, Tax
Exempt and Government Entities Division, Wage and Investment Division, Criminal
Investigation function, and Office of Appeals during the period December 2005 through
September 2006. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




3
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
4
  Operating units include employees from collection, examination, customer service, and tax return processing who
report to divisions or functions that include the Large and Mid-Size Business Division, Small Business/
Self-Employed Division, Tax Exempt and Government Entities Division, Wage and Investment Division,
Office of Appeals, and Criminal Investigation function.
                                                                                                          Page 2
                 Inefficiencies in Processing Operations Assistance Requests
                            Caused Taxpayers Unnecessary Delays




                               Results of Review

The Operations Assistance Request Process Is Inefficient,
Contributes to Inaccurate Data, and Causes Unnecessary Delays to
Taxpayers
During FY 2005, the TAS closed 161,172 OARs related to 109,400 TAS cases. Of these,
140,709 (87 percent) were completed, while 20,463 (13 percent) were rejected by Operations for
various reasons. It took an average of 22 days to close the 140,709 completed Requests.
However, we identified inefficiencies in the Request process that led to processing delays and
contributed to inaccurate data in the TAMIS. Many taxpayers who request assistance from the
TAS have already experienced either a systemic delay trying to resolve problems with the IRS or
have a financial hardship that requires an immediate response. Given the substantial volume of
Requests, it is important that both the TAS and Operations process them effectively and
efficiently, to provide relief to burdened taxpayers as quickly as possible.
The TAS did not always deliver Requests to Operations liaisons using the most expeditious
method. We estimate approximately 39,600 (28 percent) of the 140,709 Requests were delayed
because the TAS did not use the most expeditious method available. Likewise, Operations
liaisons did not return completed Requests to the TAS using the most expeditious methods
available. We estimate Operations did not immediately return 36,300 (26 percent) Requests to
the TAS once the recommended actions had been completed.
In addition, TAS personnel did not record milestone dates properly in the TAMIS for
approximately 66 percent of the Requests in our random variable sample. We estimate
approximately 90,000 (64 percent) of the 140,709 Requests closed as completed in FY 2005 had
at least 1 error on the OAR milestone dates recorded on the TAMIS. As a result, TAS
management cannot rely on the TAMIS to accurately assess the Request process and identify
trends.
Further, it did not appear the TAS and Operations were communicating to establish the dates
when Requests should be completed to address taxpayers’ issues, and a significant number of
Requests were rejected by Operations. We believe the Request process can be improved to
reduce the processing delays, errors, and rejections.

The current process for shipping OARs to and from Operations is inefficient
The TAS and Operations did not always use the most expeditious method to exchange Requests.
Currently, the TAS and Operations liaisons send Requests via facsimile, hand delivery, internal
mail, priority mail, and regular mail. Each of these methods has benefits and limitations
                                                                                         Page 3
                    Inefficiencies in Processing Operations Assistance Requests
                               Caused Taxpayers Unnecessary Delays



including cost, time, and staff resources. No single method will work for all Requests because
some involve just the Request, while others involve sending original documents and/or varying
quantities of supporting documents. However, because taxpayers seek the TAS’ assistance in
resolving a hardship, possibly one that had already involved IRS delays, we believe the TAS and
Operations should use the most expeditious delivery methods to minimize further burden to
taxpayers.
The Agreements do not specify how Requests should be shipped between the TAS and
Operations liaisons. One agreement between the TAS and the Criminal Investigation function
mentions the shipping method but states only that the Request can be sent via facsimile. In
addition, written procedures in the TAS Internal Revenue Manual do not provide direction to
employees for the preferred method or best practices for shipping Requests to Operations
liaisons.
We selected a random variable sample of 250 completed Requests and determined 180 were sent
from the TAS to Operations liaisons using the most expeditious method (fax, internal mail, hand
delivery, or priority mail). However, the TAS could have sent the remaining 70 Requests
(28 percent) more expeditiously, primarily by faxing them to Operations. When projected to the
entire population, we estimate the TAS could have sent approximately 39,600 of the FY 2005
Requests, related to 37,600 taxpayers, to the Operations liaisons in a more expeditious manner.
Generally, Operations needs to return the Form 12412 to the TAS only after the Request is
completed. Occasionally, Operations must return original documents or a large quantity of
documents to the TAS. Our sample identified 60 Requests (24 percent) that could have been
returned to the TAS faster if Operations had faxed them to the TAS the day the requested actions
had been completed. When projected to the entire population, we estimate approximately
36,300 Requests, affecting 34,900 taxpayers, could have been returned to the TAS more
expeditiously.
The TAS closed an additional 41 Requests from our sample without a completed Request or the
completed Request was not in the TAS case file. TAS officials stated that if Form 12412 is not
provided, TAS employees may verbally contact Operations or research the case to determine if
Operations had completed the requested action. This takes additional time and may cause further
delays to the taxpayer, especially if the TAS must take additional steps to resolve the taxpayer’s
issue after Operations completes the Request. One Operations liaison reported that Requests are
not returned to the TAS because the Agreements do not require this action. The Agreements
require only that the Operations employee assigned the case discuss findings and
recommendations on the final disposition of the case with the appropriate TAS employee.5



5
 Only the Agreement between the TAS and the Criminal Investigation function requires the completed Requests to
be returned to the TAS.
                                                                                                       Page 4
                  Inefficiencies in Processing Operations Assistance Requests
                             Caused Taxpayers Unnecessary Delays



Although the TAS expressed concerns related to the regular use of priority mail because of the
cost, it issued internal guidance on May 24, 2006, regarding the shipping of Requests to
Operations liaisons by stating in part:
       For now, TAS Liaisons will use a facts and circumstance approach to determine
       the speed that an OAR and its documentation needs to be transmitted based on the
       taxpayer’s burden to be relieved. We find that most often, faxes are the way to
       go, they’re expeditious and you get a confirmation receipt. If a taxpayer’s
       situation requires the OAR receive expedite processing, TAS Liaisons can use
       priority mail if warranted.
The use of expeditious shipping methods to deliver Requests allows TAS employees to better
track when Requests are received by Operations liaisons, provides better customer service to the
taxpayer, and reinforces the priority consideration that should be given to Requests. We agree
that not all Requests should be sent by priority mail, only those that require the submission of
original documents or are too large to fax. Priority mail should not be the first choice, but it
should be considered after the other expeditious methods, primarily faxing, have been
considered.

OAR information on the TAMIS is unreliable
The TAMIS is a database dedicated to recording, controlling, and processing taxpayer cases and
is used by the TAS in the analysis of core tax issues, laws, policies, and internal IRS processes.
It is a critical source of data for the National Taxpayer Advocate’s Annual Report to Congress,
for internal feedback reporting to Operations, and for recommending changes to tax legislation
and internal IRS processes. Accurate information on the TAMIS is important for both the TAS
and Operations to identify trends, successes, and areas needing improvement to better serve
taxpayer needs.
The TAS creates, updates, and monitors Requests on the TAMIS and has created a TAMIS web
portal for IRS Operations to review this information. With the introduction of the TAMIS web
portal, Operations liaisons have the capability of accessing Request information on the TAMIS;
however, the access is read only. Only TAS personnel are authorized to input data directly to the
TAMIS.
We considered six dates used in the Request process and recorded on the TAMIS to be
milestones. In our random variable sample of 250 Requests completed during FY 2005, we
identified 164 (66 percent) with 1 or more of the 6 milestone dates incorrectly input to the
TAMIS. We estimate 90,000 of the 140,709 Requests on the TAMIS were unreliable for




                                                                                            Page 5
                     Inefficiencies in Processing Operations Assistance Requests
                                Caused Taxpayers Unnecessary Delays



controlling and monitoring of the OAR process. Figure 1 shows the number of errors for each of
the six milestone dates in our sample.6
                        Figure 1: OAR Dates Not Reliable on the TAMIS
                                                   Random Variable Sample of 250 Completed OARs
                                                           From a Population of 140,709
              OAR Dates on the TAMIS
                                                         Sample
                                                                         Estimated Errors for Population
                                                         Errors
         The TAS Sends OAR to Operating Unit                    42                                 23,259
         Operations Liaison Receives OAR                        64                                 32,644
         Operations Liaison Acknowledges OAR                    50                                 26,904
         Operations Liaison Assigns OAR                         46                                 23,555
         Operations Employee Completes OAR                      64                                 34,136
         The TAS Receives Completed OAR                         85                                 47,419
                                         Total               164*                                 90,000*
       (*) Columns do not total because some OARs contained more than one incorrect date on the TAMIS.
       Source: Our analysis of unedited TAMIS data, TAS case information, and operating unit information
       for a random variable sample of 250 Requests completed during FY 2005 from a population of
       140,709. See Appendix IV for details on the random variable sample estimates.

In addition, the TAMIS did not accurately track the dates throughout the OAR process. The
TAMIS reported an average of 21.70 calendar days to process the 140,709 Requests completed
during FY 2005. However, we estimated the average processing time for Requests completed in
FY 2005 was 24.55 calendar days. Based on our sample results, we estimated the TAMIS
understated the average processing time by 2.85 calendar days. Some actions were understated
while others were overstated on the TAMIS. Figure 2 shows the average calendar days by
component for Requests completed during FY 2005.




6
  Appendix IV explains the combined unreliable information estimate for the different results presented in this
report.
                                                                                                             Page 6
                       Inefficiencies in Processing Operations Assistance Requests
                                  Caused Taxpayers Unnecessary Delays



                             Figure 2: Average Calendar Days to Process
                               140,709 OARs Completed During FY 2005
                                             Unedited         Estimate From Random Variable Sample of 250
                                              TAMIS           Completed OARs From a Population of 140,709
             Components of the                Average               Average
               OAR Process                    Number                                            Net Result for
                                                                Calendar Days
                                            of Calendar                                       Average Number
                                                                 the TAMIS Is
                                                Days                                          of Calendar Days
                                                            Understated/(Overstated)
        Send OAR to Operating Unit              4.95                     (2.09)                     *2.85
        Acknowledge OAR                         1.14                       1.70                      2.84
        Assign OAR                              0.62                       0.00                      0.62
        Complete OAR Action(s)                 11.85                       3.06                     14.91
        Return OAR to the TAS                   3.14                        .18                      3.32
                           Total Process       21.70                   2.85                    *24.557
     (*) Net result for rows do not total due to calculation rounding.
     Source: Our analysis of unedited TAMIS data, TAS case information, and operating unit information for a
     random variable sample of 250 Requests completed during FY 2005 from a population of 140,709.

The TAS does not always send the Request to Operations on the same date it records as the “sent
date” on the TAMIS. This date is critical to the OAR process because time starts when the TAS
sends a Request to Operations and ends when the TAS receives the completed Request from
Operations. We also found several incorrect dates recorded on the TAMIS, including the liaison
received date, acknowledged date, date assigned, and date assistance actions were completed.
These errors occurred because Operations liaisons did not provide information consistently to the
TAS employees using Document Transmittals (Form 3210) and Forms 12412. Sometimes these
documents were not returned or not associated with the TAS case file, and occasionally,
documentation was incomplete. Most of the Agreements between the TAS and Operations do
not require Operations to return the completed Form 12412 to the TAS. However, these
Agreements require Operations personnel assigned the Request to communicate the resolution to
the TAS employee.
The TAS also tracks the date a completed Request is received. We determined this date is not
always accurate on the TAMIS. In 13 instances, the TAS date-stamped the completed Request
with the date it was received but documented the TAMIS with a different date. An additional
22 Requests were faxed by Operations to the TAS, but the TAS did not record the faxed date on
the TAMIS. TAS personnel told us the dates recorded in the TAMIS depended on the time of
day the Request was faxed, as well as the time zones of the TAS and Operations employees. We
believe the date Operations faxed the Request to the TAS should be considered the date on which
the completed Request was received.

7
    Our estimate is based on a 90 percent confidence level and a precision level of +2.32 days.
                                                                                                            Page 7
                 Inefficiencies in Processing Operations Assistance Requests
                            Caused Taxpayers Unnecessary Delays



We also identified 43 situations in which the TAS closed Requests prematurely and documented
the wrong date on the TAMIS, although Operations had not yet completed the recommended
actions. This occurred when Operations returned the Form 12412 to the TAS with an update or
status of the Request; however, TAS employees mistakenly viewed this action as receipt of a
completed Request. Consequently, the Request processing time was understated when the TAS
closed the Request before Operations had completed all of the necessary actions on a taxpayer’s
account. Because of these inaccuracies, the TAMIS provides management with misleading
information that indicates faster processing times than taxpayers are actually experiencing. In
addition, management does not have the information necessary to identify problems and
implement actions to reduce taxpayers’ delays.

The OAR process should be fully automated
The OAR process begins when the TAS liaison issues a Request to an Operations liaison using a
hardcopy Form 12412 along with Form 3210. The Operations liaison returns the Form 3210 to
the TAS with the date on which the Request was received and identifies the Operations
employee assigned to the Request. Once the Operations employee completes the necessary
actions on a taxpayer’s account, the Operations liaison returns the completed Form 12412 to the
TAS liaison, with the closed date and a description of the actions taken. The TAS is required to
update the TAMIS once this information is received.
Since Operations liaisons have “read-only” access to Request information through the TAMIS
web portal, they cannot directly update the Requests on the TAMIS. TAS employees must
manually document all dates and actions on the TAMIS. One Operations liaison told us the
TAMIS web portal is not useful because the TAS does not update it timely and it cannot be used
to track and manage the inventory of Requests. As a result, many Operations liaisons either do
not obtain access to the TAMIS web portal or do not use it regularly. In many instances,
Operations liaisons developed their own spreadsheets to manage their inventory of Requests.
Fully automating the OAR process would dramatically improve the reliability of data on the
TAMIS as well as the inefficient process of sending and returning Requests to and from the
TAS. A fully automated system would allow Operations liaisons the capability to update the
System directly, which would virtually eliminate the unreliable data we identified on the
TAMIS. By sending and receiving Requests electronically, the System would accurately record
milestone dates in the OAR process. A fully automated System also would document the date
Requests are read (acknowledged received) by the Operations liaisons, similar to how email can
be used to determine when messages are received and read. In addition, if Operations liaisons
are given the ability to input data to the TAMIS, they can instantly update a Request with the
individual assigned to address the recommended actions as well as the actions taken. Further,
the System would automatically input the dates those actions occurred. Therefore, a fully
automated TAMIS would substantially reduce human errors, timing differences, and insufficient
documentation provided by Operations that cause Request data to be unreliable.

                                                                                          Page 8
                 Inefficiencies in Processing Operations Assistance Requests
                            Caused Taxpayers Unnecessary Delays



Although the TAS and Operations can improve the efficiency of the OAR process by delivering
and returning Requests using the most expeditious method available (fax, hand delivery, internal
mail, and priority mail), automation will make the process even more efficient and reliable and
will significantly reduce or eliminate the time needed to deliver Requests between the TAS and
Operations. This will allow the IRS to reduce the number of unnecessary delays when
responding to taxpayers, many of whom have already experienced IRS delays or financial
hardships.

Recommendations
Recommendation 1: The National Taxpayer Advocate should request that the TAMIS be
reprogrammed to allow Operations liaisons the ability to directly input the information they are
currently required to provide to the TAS in hardcopy, including the return of completed
Requests. In addition, the Operations liaisons should use the TAMIS web portal for the receipt
of Requests being issued by the TAS.
       Management’s Response: IRS management did not agree with our recommendation
       to automate the OAR process to allow Operations liaisons direct access to the TAMIS.
       The TAS stated taxpayer information is confidential, and allowing Operations liaisons
       access to the TAMIS would require special, complex programming. However, the TAS
       plans to develop an electronic OAR which Operations employees will be able to access
       through the new Desktop Integration System.
       Office of Audit Comment: We believe the TAS’ plan to develop an electronic OAR
       accessible through the Desktop Integration System sufficiently addresses our
       recommendation.
Recommendation 2: Until the OAR process is fully automated, the TAS and Operations
should reinforce the use of faxing or other expeditious methods to deliver and return Requests
and clarify expectations for the return of completed Forms 12412 to the TAS.
       Management’s Response: IRS management agreed with the recommendation and
       will revise their procedures and negotiate revisions to the Service Level Agreements with
       Operations regarding the method used to deliver and return OARs. Also,
       Small Business/Self-Employed Division management will reinforce the use of fax or
       other expeditious methods to deliver/return Form 12412 requests and clarify
       expectations.

The Taxpayer Advocate Service and Operations Are Not Complying
With Completion Dates
When the TAS issues a Request, it specifies a date it anticipates the Request will be completed;
this is called the Requested Completion Date. The Agreements require TAS personnel to contact

                                                                                           Page 9
                 Inefficiencies in Processing Operations Assistance Requests
                            Caused Taxpayers Unnecessary Delays



the Operations employee assigned the Request to discuss the Requested Completion Date. If the
TAS agrees that a Requested Completion Date is unreasonable, it is required to obtain a
Negotiated Completion Date (usually later) with Operations.
Our analysis of the TAMIS showed that Operations did not address the taxpayer’s issue
and returned the completed Request to the TAS by the Requested Completion Date in
57,602 (41 percent) of the 140,709 Requests closed in FY 2005. It appears the TAS is not
always working with Operations to negotiate when a Request will be completed. We determined
42,731 (74 percent) of the 57,602 Requests either did not document that a Negotiated
Completion Date was secured or the Request was received by the TAS after the Negotiated
Completion Date. These 42,731 Requests were related to 37,212 taxpayers.
From our random variable sample of 250 completed Requests, we determined 116 required a
Negotiated Completion Date because the TAS received the Request either after the Requested
Completion Date or after the Negotiated Completion Date had expired, per the TAMIS. Figure 3
shows the results of our analysis of these 116 Requests.
              Figure 3: OARs Requiring a Negotiated Completion Date


                                                                    No Negotiated
                            14%
                                                                    Completion Date

                                                                    Received After
                                                                    Negotiated Completion
                 19%                                                Date
                                                                    Negotiations Not
                                                   60%              Documented

                       7%                                           Received Before
                                                                    Negotiated Completion
                                                                    Date



         Source: Our analysis of a sample of 250 OARs completed during FY 2005.

We determined only 14 percent of the Requests that required a Negotiated Completion Date
actually had one, were received by the due date, and had documentation supporting the
negotiations with Operations. The remaining 86 percent of the Requests either did not have a
Negotiated Completion Date, were received after the due date, or did not have documentation
that the TAS had discussed the Negotiated Completion Date with Operations. Specifically:



                                                                                            Page 10
                   Inefficiencies in Processing Operations Assistance Requests
                              Caused Taxpayers Unnecessary Delays



    •   Seventy (60 percent) of the 116 Requests did not have a Negotiated Completion Date.
        The majority of these were received by the TAS more than 5 workdays after the
        Requested Completion Date.
    •   Eight (7 percent) of the 116 Requests were received after the Negotiated Completion
        Date and no revised Negotiated Completion Date was secured. The majority of these
        were received by the TAS more than 5 workdays after the Negotiated Completion Date.
    •   Twenty-two (19 percent) of the 116 Requests were received before the Negotiated
        Completion Date, but the TAS did not document that any negotiations between the TAS
        and Operations had taken place. The Internal Revenue Manual requires, “The case
        advocate must document [the] TAMIS throughout the OAR process. For those items that
        cannot be recorded, or updated, on the two OAR Screens, the case advocate will use the
        appropriate TAMIS screens.” This process provides evidence that the Negotiated
        Completion Date recorded in the TAMIS was agreed to with Operations. However, TAS
        personnel told us they do not believe it is necessary for case advocates to document these
        communications in the TAMIS.
    •   Sixteen (14 percent) of the 116 Requests were received timely (prior to the expiration of
        the Negotiated Completion Date) and negotiations between the TAS and Operations were
        documented.
The TAS did not agree with some of the Requests we identified as untimely because they were
received within 5 workdays of the due dates. The TAS Internal Revenue Manual requires that
subsequent actions be taken within 5 workdays from a “follow-up date” notated on the TAMIS.
We believe a Requested Completion Date or Negotiated Completion Date is not a “follow-up
date” but rather a date when the TAS expects the Request to be completed and received. Further,
the National Taxpayer Advocate disagreed with a previous Treasury Inspector General for Tax
Administration recommendation to eliminate the 5-workday grace period allowed on follow-up
dates.8 We continue to believe this provision of the Internal Revenue Manual is not prudent
because it does not emphasize the urgency needed to resolve taxpayer issues.
One Operations employee explained he or she does not arrange for Negotiated Completion Dates
with the TAS. Others stated a Negotiated Completion Date was not applicable because they
completed the recommended action on the Request prior to the Requested Completion Date.
Although Operations may have completed the recommended action prior to the Requested
Completion Date, for the exceptions we identified Operations did not communicate the
resolution with the TAS employee prior to that date. These dates should be used to facilitate
communication between the TAS and Operations during the OAR process. Regular



8
 The Taxpayer Advocate Service Needs to Improve Case Management to Ensure Taxpayer Problems Are Resolved
Timely (Reference Number 2004-10-166, dated September 2004).
                                                                                                 Page 11
                 Inefficiencies in Processing Operations Assistance Requests
                            Caused Taxpayers Unnecessary Delays



communication would ensure Requests are worked expeditiously, address any problems, and
provide additional time to resolve the taxpayer’s issue, if needed.
The purpose of a Negotiated Completion Date is to set a viable date because the Requested or
previous Negotiated Completion Date cannot be met. TAS employees should document their
case histories to support why a Requested Completion Date or Negotiated Completion Date was
not met, how much more time is necessary, and the actions remaining. Without this information,
the TAS may not identify OAR processing issues or delays with Operations that would allow the
TAS to take corrective actions to better serve taxpayer needs.

Recommendations
Recommendation 3: The National Taxpayer Advocate; the Commissioners, Small
Business/Self-Employed Division, Wage and Investment Division, Tax Exempt and Government
Entities Division, and Large and Mid-Size Business Division; the Chief, Appeals; and the
Chief, Criminal Investigation, should define clearly the Requested and Negotiated Completion
Dates.
       Management’s Response: IRS management agreed with the recommendation and
       will revise their procedures and negotiate revisions to the Service Level Agreements with
       Operations regarding the use of Requested and Negotiated Completion Dates. Also,
       Small Business/Self-Employed Division management will publish an article in their
       Technical Digest to reinforce the need to communicate with the TAS on setting agreed-
       upon completion dates and the need to close cases within the agreed-upon timeframes.
Recommendation 4: The National Taxpayer Advocate should require TAS personnel to
document their case histories when communication between the TAS and Operations occurs,
including instances when a Negotiated Completion Date is discussed. Also, the TAS should
revise and enforce procedures requiring follow-up to Requested and Negotiated Completion
Dates prior to their expiration. This would include reprogramming the TAMIS so the systemic
follow-up occurs on or before the Requested and/or Negotiated Completion Date.
       Management’s Response: IRS management agreed that case advocates should
       document their case histories when communication occurs between the TAS and
       Operations. The TAS will reinforce the need for better documentation as part of the
       annual training for case advocates. When a Requested Completion Date or Negotiated
       Completion Date is input on an OAR screen, the TAMIS automatically establishes a
       follow-up date 1 day after the newly established date. The National Taxpayer Advocate
       stated that case advocates face extreme difficulty in meeting timeliness goals in the face
       of rapidly increasing caseloads and decreasing staff. Generally, case advocates are given
       a 5-day grace period to follow-up on an action item. This grace period is necessary
       because unlike other IRS units, the TAS cannot simply shelve cases when inventories


                                                                                         Page 12
                 Inefficiencies in Processing Operations Assistance Requests
                            Caused Taxpayers Unnecessary Delays



       become too big. However, the TAS is considering revising its policy of permitting the
       5-day grace period because of the role that OARs play in moving cases along.
       Office of Audit Comment: We believe case advocates should take action by the
       Requested Completion Date or the Negotiated Completion date to avoid delays and move
       the taxpayer’s case to resolution. We believe the National Taxpayer Advocate should
       follow through with its reconsideration of the policy, and eliminate the 5-day grace
       period allowed on follow-up dates because this grace period undermines the importance
       of meeting follow-up dates and the sense of urgency inherent to the TAS. We understand
       that case advocates may not always meet the follow-up dates and in those instances they
       should document the cases with an explanation.

The Taxpayer Advocate Service and Operations Are Not Complying
With the Service Level Agreements When Rejecting Operations
Assistance Requests
A rejected Request occurs when Operations returns it to the TAS without addressing the
recommended action. However, the Agreements do not allow Requests to be returned to the
TAS as rejects but instead require that Operations contact the Local Taxpayer Advocate or the
TAS liaison. This includes Requests that are sent to the wrong Operations liaison (misrouted)
for all but one of the Agreements. A misrouted Request cannot be completed because the
Operations liaison does not have the authority and/or expertise and the Request needs to be
handled by another office. Although the Agreements do not allow for Requests to be rejected,
with the exception of one Agreement, the Form 12412 includes the following options to reject a
Request:
   •   The operating unit disagrees with TAS’ recommended actions.
   •   The TAS has the authority to complete the requested action(s).
   •   Routed to the wrong OAR operations liaison (misrouted).
   •   The Form 12412 is incomplete.
   •   The action requested by the TAS is unclear.
   •   Supporting documentation was not attached.
   •   Other.
If a Request is rejected, the TAS generally must prepare a new one and repeat the process. This
delays the resolution of the taxpayer’s issue(s), potentially causing burden to the taxpayer by
extending the time to respond to his or her needs. During FY 2005, 20,463 (13 percent) of the
161,172 closed Requests were closed on the TAMIS as rejects. Figure 4 presents the reasons
why Requests were rejected in FY 2005.
                                                                                        Page 13
                     Inefficiencies in Processing Operations Assistance Requests
                                Caused Taxpayers Unnecessary Delays



                            Figure 4: OARs Rejected During FY 2005
                                                                         Number of        Percentage of
                        Reason OARs Were Rejected
                                                                           OARs               Total
          Other                                                            9,466               46.3%
          Routed to the wrong OAR operations liaison (misrouted)           6,472               31.6%
          The operating unit disagrees with TAS’ recommended
                                                                           1,997                9.8%
          actions
          Supporting documentation was not attached                        1,069                5.2%
                                              9
          OARs closed with multiple reasons                                  920                4.5%
          The TAS has the authority to complete the requested
                                                                             322                1.6%
          action(s)
          The Form 12412 is incomplete                                       174                 .8%
          The action requested by the TAS is unclear                          43                 .2%
                                            Total OARs Rejected           20,463               100%
          Source: TAMIS data for Requests rejected during FY 2005.

We selected a random variable sample of 100 Requests rejected by Operations during FY 2005
to determine the reason they could not be processed. Based on our analysis, we believe rejected
Requests may be significantly reduced with better communication between the TAS and
Operations. In addition, the majority of misrouted Requests occurred because the TAS
mistakenly sent them to the wrong Operations liaison. Most of the misrouted Requests can be
eliminated if the TAS uses the tools it already has available. This would allow the IRS to further
reduce the number of unnecessary delays passed on to the taxpayers. The TAS independently
reviewed the cases in our sample and concluded a significant number of misrouted Requests
could have been avoided with Internal Revenue Manual, web, or Integrated Data Retrieval
System research.10

The OAR recommended action should be addressed by Operations unless the
Request was misrouted
During FY 2005, 13,991 (68 percent) of the 20,463 rejected Requests were closed for reasons
other than being misrouted. These 13,991 Requests involved a total of 11,763 taxpayers.11
Further, 46 percent of the Requests rejected by Operations in FY 2005 were closed with the
reason “Other,” which provides no useful information to TAS management. When Operations
returns a Request to the TAS without addressing the recommended action, it wastes IRS

9
  A rejected Request can be closed on the TAMIS with more than one of the reject reasons listed.
10
   TAS monthly analyst conference call minutes dated March 16, 2006. The Integrated Data Retrieval System is the
IRS computer system capable of retrieving or updating stored information; it works in conjunction with a taxpayer’s
account records.
11
   A TAS taxpayer may require more than one Request to resolve his or her account.
                                                                                                          Page 14
                    Inefficiencies in Processing Operations Assistance Requests
                               Caused Taxpayers Unnecessary Delays



resources, causes delays in resolving the taxpayer’s issue, and is in violation of the Agreement.
As stated earlier, the Agreements require Operations to contact the TAS when a Request
involves one of the reject reasons instead of returning the Request unworked.
It appeared that Operations employees did not always contact the TAS to discuss the reasons a
Request could not be processed. Consequently, the TAS employee has to issue a second Request
to Operations to address the taxpayer’s issue. With improved communication between the TAS
and Operations, there would be fewer rejected Requests. It appeared that many of the reasons for
rejecting Requests could have been resolved over the telephone. For example, Operations could
verbally request that the TAS send missing documentation, clarify requests, or provide missing
information. In addition, even if the TAS has the authority to complete the requested actions, we
believe Operations should still process the Request so the taxpayer is not further burdened
because of an IRS procedural error. Operations can work internally to address this issue with the
TAS during their mandatory quarterly meetings.

The TAS did not send the majority of the misrouted OARs to the proper liaison
In our sample of 100 Requests rejected by Operations, 35 (35 percent) of 100 were misrouted,
per the TAMIS. Further, 27 (77 percent) of the 35 misrouted Requests occurred because the
TAS employee sent the Request to the wrong Operations liaison. We estimate 5,800 of the
20,463 Requests rejected (affecting approximately 5,000 taxpayers) were misrouted by TAS
employees even though they had the necessary tools to determine where the Requests should
have been sent. The results of our sample are consistent with a recent study by the Wage and
Investment Division that recommended TAS employees be informed of the resources available
and use those resources to determine where Requests should be routed. While it is possible
misroutes could occur because of insufficient resources or inadequate guidance provided by
Operations (such as the current list of liaisons), we did not identify any Requests that were
misrouted for these reasons.
Several factors contributed to TAS employees misrouting Requests. TAS employees who issue
Requests must identify the appropriate liaison, which can be a complicated process. TAS
employees must consider the taxpayer’s issue, if the taxpayer’s account is currently assigned to
an Operations employee, and the taxpayer’s location. To facilitate the proper assignment of
Requests to the correct liaison, the TAS provides several tools to its employees on its web site
including a link to the Campus Locator Guide, which shows what issues are worked at which
campuses.12 The TAS web site also contains an OAR routing guide that is issue specific and
provides an explanation of the Request requirements and/or special instructions for each of the
applicable campuses. In addition, the current Agreements for each of the six operating divisions
and their addendums (as provided by Operations) provide the liaison lists.


12
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                      Page 15
                 Inefficiencies in Processing Operations Assistance Requests
                            Caused Taxpayers Unnecessary Delays



Although there appears to be adequate guidance available to TAS employees on the TAS web
site, we were unable to ascertain why the majority of TAS-caused misroutes occurred. TAS
management believes Operations does not always provide them with an updated list of liaisons
that are responsible for processing the Requests. We could neither confirm nor refute the TAS’
claim that Operations failed to provide them with timely and updated information. Generally,
there was little or no information in the TAMIS history to establish why the TAS employees sent
the Requests to the wrong person, such as an outdated liaison list. Because the OAR process is
paper driven, misrouted Requests cause delays to the taxpayer.

Recommendations
Recommendation 5: The National Taxpayer Advocate should revise Form 12412 to allow
Requests to be closed as completed or as misrouted only if they had been sent to the wrong
Operations liaison.
       Management’s Response: IRS management agreed with the recommendation that
       the Form 12412 should be revised and will revise the Form with two sections to indicate
       actions taken on the OAR, “Action Taken” and “Returned with No Action Taken.”
       Office of Audit Comment: Although IRS management has committed to revising the
       Form 12412, it is unclear whether the revisions will completely address our
       recommendation. By allowing Operations liaisons to return an OAR to the TAS with no
       action taken, the resolution of taxpayer cases may continue to be delayed. If the
       instructions for completing the “Action Taken” section clarify that it is not acceptable to
       return the OAR without taking the requested action unless the OAR was misrouted to the
       wrong liaison, this would sufficiently address our recommendation.
Recommendation 6: The National Taxpayer Advocate should evaluate a sample of
misrouted Requests to determine the reasons the Requests were issued to the incorrect liaison or
operating division. TAS management should then take appropriate action to reduce the number
of misrouted Requests in the future.
       Management’s Response: IRS management agreed with the recommendation and
       stated they are currently in the process of evaluating a sample of misrouted OARs. Also,
       they are developing an intranet tool to assist TAS employees with determining where an
       OAR should be sent.




                                                                                          Page 16
                 Inefficiencies in Processing Operations Assistance Requests
                            Caused Taxpayers Unnecessary Delays



                                                                                  Appendix I

       Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the OAR process is efficient and
whether the TAS has an effective method to track OARs. The scope of our review included
Requests that were closed on the TAMIS in FY 2005. To achieve the objectives, we:
I.     Determined whether TAS or Operations personnel were causing delays when processing
       Requests.
       A.     Obtained an extract of Requests closed in FY 2005 from the TAMIS. We
              validated the reliability of the computer extract by comparing population totals to
              information obtained from TAS officials and reviewed selected fields for
              accuracy.
       B.     Selected a random variable sample of 250 Requests closed as completed and
              secured applicable Request documents.
       C.     Reviewed the sampled Requests to determine whether Agreement requirements
              were being met.
       D.     Evaluated the management controls over the OAR process by reviewing the
              TAMIS web portal and audit trail for FY 2005.
II.    Determined whether the TAS and Operations were using the Negotiated Completion Date
       when processing Requests.
III.   Determined why a substantial number of Requests are being rejected.
       A.     From the extract of Requests closed in FY 2005 from the TAMIS, selected a
              random variable sample of 100 Requests closed as rejects.
       B.     Reviewed the sampled Requests to determine whether there were opportunities to
              decrease the number being rejected.
IV.    Determined whether Request information on the TAMIS is reliable by using the
       250 sampled Requests that were closed on the TAMIS as completed.
       A.     Compared the Request data input to the TAMIS against information provided by
              Operations and TAS case files.
       B.     Evaluated management controls over the OAR process by reviewing the accuracy
              of six milestone dates in the process.


                                                                                          Page 17
                  Inefficiencies in Processing Operations Assistance Requests
                             Caused Taxpayers Unnecessary Delays



                                         Sampling Plan
We consulted with a statistician to design our sampling methodology and to ensure our results
were projected accurately. We selected a random variable sample of 250 Requests closed in
FY 2005 (from the TAMIS database) by using a standard deviation for each stratum based on the
number of estimated days delayed. A random variable sample was selected to allow us the
opportunity to project time, if applicable. The following table shows the sampling methodology.
                                    Sampling Methodology

                                                  ESTIMATED        # OF REQUESTS
                  TOTAL DAYS         # OF                                              SAMPLE
 STRATA                                           STANDARD           × STANDARD
                     OPEN          REQUESTS                                              SIZE
                                                  DEVIATION           DEVIATION
 STRATUM 1       30 OR FEWER           113,374              7.5        850,305            161
 STRATUM 2       31 TO 60               18,891          13.0           245,583             46
 STRATUM 3       61 TO 90                4,685          22.5           105,413             20
 STRATUM 4       91 TO 180               2,870          27.0            77,490             15
                 181 AND
 STRATUM 5                                 889          50.0            44,450              8
                 ABOVE
 TOTALS                                140,709                       1,323,241            250


We took a second random variable sample of Requests from the rejected/returned population of
Requests closed in FY 2005 (from the TAMIS database) using the following parameters: a
confidence level of 90 percent, an expected error rate of 10 percent, and a sampling precision of
+5 percent. Based on these parameters, our sample size was 100 rejected/returned Requests. A
random variable sample was selected to allow us the opportunity to project time, if applicable.
The following table shows the sampling methodology.
                       Sampling Methodology for Rejected Requests

                                                 ESTIMATED        # OF REQUESTS
                 TOTAL DAYS         # OF                                              SAMPLE
 STRATA                                          STANDARD           × STANDARD
                    OPEN         REEQUESTS                                              SIZE
                                                 DEVIATION           DEVIATION
 STRATUM 1       21 OR FEWER           16,238         7.5              121,785             62
 STRATUM 2       22 TO 45               3,076        13.0               39,988             20
                 46 AND
 STRATUM 3                              1,149        30.0               34,470             18
                 ABOVE
 TOTALS                                20,463                          196,243            100




                                                                                          Page 18
                Inefficiencies in Processing Operations Assistance Requests
                           Caused Taxpayers Unnecessary Delays



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Carl L. Aley, Director
Janice M. Pryor, Audit Manager
Joseph P. Smith, Lead Auditor
Aaron R. Foote, Senior Auditor
Stephanie K. Foster, Senior Auditor
Mary F. Herberger, Senior Auditor
Daniel M. Quinn, Senior Auditor
David P. Robben, Senior Auditor




                                                                                   Page 19
               Inefficiencies in Processing Operations Assistance Requests
                          Caused Taxpayers Unnecessary Delays



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division S:W
Chief, Criminal Investigations SE:CI
Chief Counsel CC
Deputy National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
        Commissioner, Large and Mid-Size Business Division SE:LM:CL
        Commissioner, Small Business/Self-Employed Division SE:COM
        Commissioner, Tax Exempt and Government Entities Division SE:T:CL
        Commissioner, Wage and Investment Division SE:W:S:W
        National Taxpayer Advocate TA
        Chief, Appeals AP:TP:SS
        Chief, Criminal Investigation SE:CI:S:PS




                                                                              Page 20
                 Inefficiencies in Processing Operations Assistance Requests
                            Caused Taxpayers Unnecessary Delays



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   •   Reliability of Information – Potential; 90,000 TAS-closed OARs due to inaccurate data
       input to the TAMIS (see page 3).

Methodology Used to Measure the Reported Benefit:
The TAS closed a total of 140,709 Requests as completed in FY 2005. We selected a random
variable sample of 250 Requests closed in FY 2005. One or more of the 6 milestone dates
reviewed were incorrectly documented on the TAMIS in 164 of the 250 Requests sampled.
Based on the sample, we estimate there were a total of 90,000 Requests with unreliable data on
the TAMIS (our estimate is based on a 90 percent confidence level and a precision level of
+5.33 percent). See Figure 1 in the report for the number of errors identified in our sample and
the projected number of errors over the population for the six milestone dates. Our statistician
confirmed the computed weighted averages used for each milestone date delayed to determine
the number of Requests affected.

Type and Value of Outcome Measure:
   •   Taxpayer Burden – Potential; the resolutions of 37,600 taxpayer accounts were affected
       during FY 2005 (see page 3).

Methodology Used to Measure the Reported Benefit:
The TAS closed a total of 140,709 Requests as completed in FY 2005. From our random
variable sample of 250 Requests closed in FY 2005, we found that 70 could have been sent by
the TAS and received by Operations liaisons faster. We estimate 39,600 (28 percent) Requests
were delayed because of the delivery method used by the TAS when delivering the Requests to
the Operations liaisons (based on a 90 percent confidence level and a precision level of
+4.97 percent). Because some taxpayers required more than 1 Request to resolve their accounts
(the 140,709 Requests were associated with 102,604 taxpayers), we further estimate the
39,600 delayed Requests potentially adversely affected approximately 37,600 taxpayers. See
Appendix I for our overall sampling methodology. Using a binomial probability distribution,

                                                                                          Page 21
                 Inefficiencies in Processing Operations Assistance Requests
                            Caused Taxpayers Unnecessary Delays



Table 1 provides the computations of taxpayers affected by how Requests were delivered to
Operations.
              Table 1: Detailed Computation of Taxpayers Affected by
                  the Method Through Which OARs Were Sent to
                             Operations During FY 2005
                Number of           Count of Taxpayers       Estimated Number of Taxpayers
               OARs Issued          With X Number of          Affected by the OAR Delivery
               per Taxpayer               OARs                          Method *
                   1 OAR                     71,216                       20,026
                   2 OARs                    19,874                       9,606
                   3 OARs                     6,722                       4,226
                   4 OARs                     2,698                       1,978
                   5 OARs                     1,041                        841
                   6 OARs                       526                        453
                   7 OARs                       257                        232
                   8 OARs                       119                        111
                   9 OARs                        53                         50
                  10 OARs                        39                         38
                  11 OARs                        26                         25
                  12 OARs                        14                         14
                  13 OARs                          7                         7
                  14 OARs                          4                         4
                  15 OARs                          5                         5
                  16 OARs                          1                         1
                  17 OARs                          1                         1
                  26 OARs                          1                         1
              Total Taxpayers               102,604                       37,619
              Source: TAMIS data for Requests completed during FY 2005. *Based on a
              binomial probability distribution formula as follows: Number of taxpayers
              multiplied by the sum of 1 minus the inverse of the error rate to the power of the
              number of Requests associated with those taxpayers.




                                                                                                   Page 22
                 Inefficiencies in Processing Operations Assistance Requests
                            Caused Taxpayers Unnecessary Delays



Type and Value of Outcome Measure:
   •   Taxpayer Burden – Potential; the resolutions of 34,900 taxpayer accounts were affected
       during FY 2005 (see page 3).

Methodology Used to Measure the Reported Benefit:
The TAS closed a total of 140,709 Requests as completed in FY 2005. From our random
variable sample of 250 Requests closed in FY 2005, we found that 60 could have been returned
to the TAS more expeditiously and timely. We estimate 36,300 (26 percent) Requests were
delayed because of the delivery method used by Operations when returning completed Requests
to the TAS (based on a 90 percent confidence level and a precision level of +4.88 percent).
Because some taxpayers required more than 1 Request to resolve their accounts (the
140,709 Requests were associated with 102,604 taxpayers), we further estimate the
36,300 delayed Requests potentially adversely affected approximately 34,900 taxpayers. See
Appendix I for our overall sampling methodology. Using a binomial probability distribution,
Table 2 provides the computations of taxpayers affected due to the delivery method used by
Operations or because the delivery was not timely.




                                                                                       Page 23
                 Inefficiencies in Processing Operations Assistance Requests
                            Caused Taxpayers Unnecessary Delays



              Table 2: Detailed Computation of Taxpayers Affected by
              the Method Through Which OARs Were Returned to the
                                TAS During FY 2005
              Number of OARs        Count of Taxpayers       Estimated Number of Taxpayers
                Issued per          With X Number of          Affected by the OAR Return
                Taxpayer                  OARs                     Delivery Method*
                    1 OAR                    71,216                       18,388
                   2 OARs                    19,874                        8,938
                   3 OARs                     6,722                        3,978
                   4 OARs                     2,698                        1,881
                   5 OARs                     1,041                         807
                   6 OARs                       526                         438
                   7 OARs                       257                         225
                   8 OARs                       119                         108
                   9 OARs                         53                        49
                   10 OARs                        39                        37
                   11 OARs                        26                        25
                   12 OARs                        14                        14
                   13 OARs                         7                         7
                   14 OARs                         4                         4
                   15 OARs                         5                         5
                   16 OARs                         1                         1
                   17 OARs                         1                         1
                   26 OARs                         1                         1
                Total Taxpayers             102,604                       34,907
              Source: TAMIS data for Requests completed during FY 2005. *Based on a
              binomial probability distribution formula as follows: Number of taxpayers
              multiplied by the sum of 1 minus the inverse of the error rate to the power of the
              number of Requests associated with those taxpayers.

Type and Value of Outcome Measure:
   •   Reliability of Information – Potential; the resolutions of 37,212 taxpayer accounts were
       affected during FY 2005 (see page 9).

Methodology Used to Measure the Reported Benefit:
The TAS closed a total of 140,709 Requests as completed in FY 2005. These 140,709 Requests
were associated with 102,604 taxpayers (a TAS taxpayer may require more than 1 Request to
resolve his or her account). Based on the TAMIS, 57,602 of the 140,709 Requests were not

                                                                                                   Page 24
                 Inefficiencies in Processing Operations Assistance Requests
                            Caused Taxpayers Unnecessary Delays



returned to the TAS by the Requested Completion Date. Further analysis of these Requests
showed that 42,731 potentially affected 37,212 taxpayers because a Negotiated Completion Date
was not documented or the Request was returned to the TAS after a Negotiated Completion
Date.

Type and Value of Outcome Measure:
   •   Taxpayer Burden – Potential; the resolutions of 11,763 taxpayer accounts were affected
       during FY 2005 (see page 13).

Methodology Used to Measure the Reported Benefit:
The TAS closed 20,463 Requests because they were rejected by Operations in FY 2005. Based
on the TAMIS, 13,991 of these Requests were rejected for a reason other than being misrouted.
These 20,463 Requests were associated with 15,965 taxpayers (a TAS taxpayer may require
more than 1 Request to resolve his or her account). Further, the 13,991 Requests were associated
with 11,763 taxpayers and potentially adversely affected those taxpayers because the
recommended actions on the Requests were not addressed by Operations.

Type and Value of Outcome Measure:
   •   Taxpayer Burden – Potential; the resolutions of approximately 5,000 taxpayer accounts
       were affected during FY 2005 (see page 13).

Methodology Used to Measure the Reported Benefit:
The TAS closed 20,463 Requests as rejects in FY 2005. We selected a random variable sample
of 100 Requests from those rejected in FY 2005. Thirty-five of the 100 sampled Requests were
rejected because they were misrouted to the wrong Operations liaisons. Twenty-seven of the
35 were caused by TAS employees; we estimate 5,846 misrouted Requests were caused by TAS
employees (based on a 90 percent confidence level and a precision level of +8.07 percent).
Based on the TAMIS, 6,472 of the 20,463 rejected Requests, affecting 5,454 taxpayers, were
closed because they were misrouted. We estimate the error rate of misrouted Requests caused by
the TAS in FY 2005 was 90.3 percent (5,846/6,472). We further estimate the 5,846 misrouted
Requests caused by the TAS potentially adversely affected approximately 5,000 taxpayers. See
Appendix I for our overall sampling methodology. Using a binomial probability distribution,
Table 3 provides the computations of taxpayers affected because their misrouted Requests were
caused by the TAS.




                                                                                        Page 25
   Inefficiencies in Processing Operations Assistance Requests
              Caused Taxpayers Unnecessary Delays



Table 3: Detailed Computation of Taxpayers Affected by
         OARs Being Misrouted During FY 2005
Number of OARs        Count of Taxpayers      Estimated Number of Taxpayers
  Issued per          With X Number of            Affected by OARs Being
  Taxpayer                  OARs                        Misrouted*
      1 OAR                    4,642                       4,192
     2 OARs                      661                        655
     3 OARs                      116                        116
     4 OARs                       23                        23
     5 OARs                         8                        8
     6 OARs                         3                        3
     8 OARs                         1                        1
  Total Taxpayers               5,454                      4,998
Source: TAMIS data for Requests closed as being misrouted only during
FY 2005. *Based on a binomial probability distribution formula as follows:
Number of taxpayers multiplied by the sum of 1 minus the inverse of the error
rate to the power of the number of Requests associated with those taxpayers.




                                                                                Page 26
        Inefficiencies in Processing Operations Assistance Requests
                   Caused Taxpayers Unnecessary Delays



                                                         Appendix V

Operations Assistance Request (OAR) (Form 12412)




                                                               Page 27
Inefficiencies in Processing Operations Assistance Requests
           Caused Taxpayers Unnecessary Delays




                                                       Page 28
Inefficiencies in Processing Operations Assistance Requests
           Caused Taxpayers Unnecessary Delays




                                                       Page 29
    Inefficiencies in Processing Operations Assistance Requests
               Caused Taxpayers Unnecessary Delays



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 30
Inefficiencies in Processing Operations Assistance Requests
           Caused Taxpayers Unnecessary Delays




                                                       Page 31
Inefficiencies in Processing Operations Assistance Requests
           Caused Taxpayers Unnecessary Delays




                                                       Page 32
Inefficiencies in Processing Operations Assistance Requests
           Caused Taxpayers Unnecessary Delays




                                                       Page 33
Inefficiencies in Processing Operations Assistance Requests
           Caused Taxpayers Unnecessary Delays




                                                       Page 34
Inefficiencies in Processing Operations Assistance Requests
           Caused Taxpayers Unnecessary Delays




                                                       Page 35
Inefficiencies in Processing Operations Assistance Requests
           Caused Taxpayers Unnecessary Delays




                                                       Page 36
Inefficiencies in Processing Operations Assistance Requests
           Caused Taxpayers Unnecessary Delays




                                                       Page 37
Inefficiencies in Processing Operations Assistance Requests
           Caused Taxpayers Unnecessary Delays




                                                       Page 38
Inefficiencies in Processing Operations Assistance Requests
           Caused Taxpayers Unnecessary Delays




                                                       Page 39
